                                                            FOR OFFICIAL USE ONLY




                       REVIEW OF FEDERAL TECHNOLOGY
                        SERVICE’S TELECOMMUNICATIONS
                         ORDERING AND PRICING SYSTEM
                       REPORT NUMBER A060151/T/6/Z06003
                              SEPTEMBER 25, 2006




                                       NOTICE

This report has been developed by and is the property of the Office of Audits, Office of
Inspector General. Copies of the report are provided to agency personnel for official
purposes only and they should not be disseminated further.

Agency officials who receive requests to release this report to anyone outside of the
General Services Administration should refer the requestor to the Office of Inspector
General, Office of Counsel – Freedom of Information Officer.



                                                            FOR OFFICIAL USE ONLY
Date       : September   25, 2006
Reply to
Attn of    : Heartland Region Field Audit Office (JA-6)

Subject    : Review of Federal Technology Service’s Telecommunications Ordering and Pricing
             System
             Report Number A060151/T/6/Z06003

To         : James
                A. Williams
           Commissioner, Federal Technology Service (T)

           Wanda M. Smith
           Acting Assistant Commissioner, Regional Services (TR)



           This report presents the results of our survey of the Review of Federal Technology
           Service’s (FTS) Telecommunications Ordering and Pricing System (TOPS). This review
           was included in the Office of Inspector General’s Fiscal Year (FY) 2006 Annual Audit
           Plan.



           Background

           TOPS is an automated system that supports the General Services Administration’s
           (GSA’s) local telecommunications business line by providing integrated online ordering
           and consolidated billing via the internet. For local telecommunications, all GSA regions,
           with the exception of the National Capital Region1 use TOPS to receive, process, and
           fulfill service orders from customer agencies. TOPS also generates invoice and
           payment information used by GSA’s Finance Center to bill customer agencies and pay
           invoices from industry partners. TOPS facilitates this process for approximately 25,500
           customers and 300 industry partners. Over $200 million in local telecommunication
           services are ordered and billed through TOPS annually.




           1
            The Washington Interagency Telecommunications System (WITS) provides local telecommunications to
           Federal agencies in the National Capital Region (NCR). The NCR uses both TOPS and the Monthly
           Online Records and Reports of Information Technology Service (MORRIS) to provide billing services to
           customer agencies on the WITS contract.


                                                        1                      FOR OFFICIAL USE ONLY
Objectives, Scope and Methodology

The objectives of our survey were to 1) gather information on the business and
programmatic requirements for TOPS, 2) assess managerial, operational, and technical
controls, and 3) identify high-risk areas related to timeliness and accuracy of customer
agency billings, industry partner payments, and service delivery.

To accomplish these objectives, we:
   • Held discussions with TOPS officials including TOPS system personnel, GSA
     Financial Service Center (FSC) staff, and TOPS users;
   • Flowcharted the business process supported by TOPS from initiation of an order
     through billing customer agencies and paying industry partners;
   • Assessed the control objectives and control techniques for each phase of the
     business process that TOPS supports;
   • Reviewed previous audit work and reports;
   • Reviewed the Office of Management and Budget (OMB) Capital Asset Plan and
     Business Case (Exhibit 300) from March 2006;
   • Obtained financial statements from FY05 and FY06 through January 31;
   • Reviewed the most recent Federal Managers’ Financial Integrity Act report,
     OMB’s FY00 and FY05 A123 reports, and the March 2005 management control
     review for the TOPS program;
   • Reviewed the June 2005 TOPS and TOPS eBill customer satisfaction results; and
   • Reviewed TOPS helpdesk records from April 2006.

We conducted the survey work during March through August 2006 in accordance with
generally accepted Government auditing standards.



Results of Review

After completion of the survey portion of our review, we have determined that further
audit work is not warranted at this time. Our preliminary assessment indicated that
existing controls appear adequate to sufficiently minimize risks related to timeliness and
accuracy of customer agency billings, industry partner payments, and service delivery.

Current Status of TOPS

Increasing Use of Internet Protocol (IP) Telecommunications. Telecommunications
within government agencies is shifting from traditional desktop devices and local
telecommunication services to IP telecommunication systems. TOPS officials estimate
that 10 percent of their customer base will shift to IP each year for the next several
years and that the majority of customer agencies will be using IP within ten years.

TOPS officials informed us that as this transition occurs, they will transform the existing
long distance system (MORRIS) into a new system (eMORRIS) to perform the current


                                         2                    FOR OFFICIAL USE ONLY
functions of both TOPS and MORRIS. Therefore, within ten years, TOPS will be
phased out as the ordering and billing system for local telecommunication.

Investment Status. TOPS is considered a steady state information technology
investment. For FY06 and future fiscal years, all planned monetary spending is for
system maintenance purposes as opposed to development, modernization, and
enhancement purposes. Further, the investment summary for TOPS indicates that the
planned costs for the system will decrease with each fiscal year.

TOPS Risks and Current Controls

To evaluate the current risks related to TOPS and the current controls in place to
mitigate or minimize those risks, we examined the business process that TOPS
supports. We identified three primary TOPS processes: 1) order placement and
release, 2) order fulfillment and invoicing, and 3) reconciliation and customer billing.
The following sections of this report outline the business process, highlight some of the
present risks, and detail current controls in place to mitigate or minimize those risks.

Order Placement and Release.              There are two ways in which a local
telecommunication service order can be placed in TOPS. An approved customer
agency representative can input an order directly, or a customer can contact their local
FTS Area Telecommunication Manager (ATM) to input the order on their behalf. When
a customer inputs the order into TOPS, the ATM verifies the accuracy of the order detail
and sends the order to the industry partner via fax or email.

The primary risks in this phase of the process are that a customer agency may order
services outside the scope of the contract and/or that the ATM will not forward the order
to the industry partner in a timely manner or at all.

We determined that TOPS will not process an out-of-scope order because the ATMs
load the contract information directly into the system. We also determined that the risk
is minimal that an ATM will not forward an order to an industry partner. ATMs access
TOPS daily to view outstanding orders. Further, each ATM is assigned a back-up ATM
in the event of their absence. After assessing these risks and analyzing the controls in
place for the order placement and release phase, we believe the risks are minimal.

Order Fulfillment and Invoicing. After the industry partner receives notice of an order,
the industry partner faxes or emails the ATM an order number and an estimated
completion date. The industry partner then performs the work and sends either a hard-
copy or electronic invoice for the work to the FTS Financial Service Center (FSC) in
Atlanta, Georgia. After the estimated completion date passes, the ATM enters a
completion notice in TOPS.

The primary risks associated with this phase of the process are that the industry partner
will not inform the ATM of the order number and estimated completion date in a timely
manner or at all, the ATM will not enter the completion notice in TOPS in a timely



                                        3                   FOR OFFICIAL USE ONLY
manner or at all, and/or the industry partner will not perform the work in a timely manner
or at all.

We determined that if the industry partner does not inform the ATM of the order number
and estimated completion date, the ATM will not enter the completion notice in TOPS.
If the ATM does not enter the completion notice in TOPS, the FSC will not process the
order for payment. If the industry partner does not perform the work, the customer
agency would dispute the charges. Another control in place to ensure that the industry
partner fulfills the order in a timely manner is their base contract with GSA, which
requires the industry partner to perform the work within 5 days.2 After assessing these
risks and analyzing the controls in place for the order fulfillment and invoicing phase, we
believe the risks are minimal.

Reconciliation and Customer Billing. After the FSC receives the industry partner’s
invoice and views the completion notice in TOPS, the FSC analyst completes the
receiving report within TOPS. TOPS generates a customer billing report, which is sent
electronically to the GSA Finance Center in Fort Worth, Texas, for customer agency
billing and industry partner invoice payment. TOPS also generates online billing
information through a system called eBill for customer agency viewing.

The primary risks in this phase of the process are that the FSC will not complete the
receiving report in a timely manner or at all and/or that the industry partner invoices
received by GSA are incorrect.

We determined that if the FSC analyst does not complete the receiving report, GSA will
not pay the industry partner for services provided. In addition, on a monthly basis, the
FSC compares income and expense reports that highlight any variances between
customer agency billing information and industry partner payment information. After
assessing these risks and analyzing the controls in place for the reconciliation and
customer billing phase, we believe the risks are minimal.

Additional Controls and Risk Mitigating Factors

TOPS Activity. We determined that approximately 80 percent of all customer agency
billings that flow through TOPS are for recurring charges (e.g., existing telephone lines).
Given that the majority of the billing activity is for recurring charges already loaded into
the system, the risk for inaccurate billings is reduced.

Separation of Duties. We determined that both an ATM and an analyst at the FSC
must take action for an order to be processed through the system. In addition, customer
agency representatives cannot independently process an order through TOPS, and
industry partners do not have access to TOPS. This separation of duties is an
additional factor that reduces overall risk.


2
  If a work order is too large for the industry partner to complete within 5 days, the partner can negotiate
the completion timeframe directly with the agency end user.


                                                  4                        FOR OFFICIAL USE ONLY
           FOR OFFICIAL USE ONLY




APPENDIX




           FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY

                REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
            TELECOMMUNICATIONS ORDERING AND PRICING SYSTEM
                    REPORT NUMBER A060151/T/6/Z06003


                               REPORT DISTRIBUTION

                                                                           Copies

Commissioner, Federal Technology Service (T)                                 3

Acting Assistant Commissioner, Regional Services (TR)                        1

Chief Financial Officer (B)                                                  2

Audit Follow Up and Evaluation Branch (BECA)                                 1

Audit Planning Staff (JAO)                                                   1

Assistant Inspector General for Auditing (JA)                                1

Regional Inspector General for Acquisition Programs Audit Office (JA-A)      1

Regional Inspector General for Audits (JA-6)                                 1

Assistant Regional Inspector General for Investigations (JI-5/KC)            1




                                       A-1                  FOR OFFICIAL USE ONLY
